                              UNITED STATES DEPARTMENT OF EDUCATION

                                      OFFICE OF INSPECTOR GENERAL 

                                              Chicago/Kansas City Audit Region

                       111 N. Canal St. Ste. 940                           8930 Ward Parkway, Ste 2401
                       Chicago, IL 60606-7297                              Kansas City, MO 64114-3302
                       Phone (312) 886-6503                                Phone (816) 268-0500
                       Fax (312) 353-0244                                  Fax (816) 823-1398



                                                      August 23, 2005
                                                                                                         Control Number
                                                                                                         ED-OIG/A07F0003

Dr. Randy J. Dunn
Interim State Superintendent
Illinois State Board of Education
100 N. 1st Street
Springfield, IL 62777

Dear Dr. Dunn:

This Final Audit Report, titled Illinois State Board of Education’s Compliance with the Public
School Choice and Supplemental Educational Services Provisions of the No Child Left Behind
Act, presents the results of our audit. The objectives of our audit were to determine if, for the
2004-2005 school year, (1) the Illinois State Board of Education (ISBE) had an adequate process
in place to review local educational agency (LEA) and school compliance with the Adequate
Yearly Progress (AYP), Public School Choice, and Supplemental Educational Services (SES)
provisions of the Elementary and Secondary Education Act of 1965 (ESEA), as amended by the
No Child Left Behind Act of 2001 (Act), and the implementing regulations; (2) LEAs provided
to students attending schools identified for improvement (failed AYP two consecutive years),
corrective action, or restructuring the option of attending another public school; and (3) LEAs
provided SES to students attending schools that failed to make AYP while identified for
improvement, corrective action, or restructuring. To achieve these objectives, we reviewed
policies and procedures at ISBE and six judgmentally selected LEAs – City of Chicago School
District 299 (Chicago), Joliet Public School District 86 (Joliet), Madison Community Unit
School District 12 (Madison), Rockford School District 205 (Rockford), Rock Island School
District 41 (Rock Island), and Waukegan Community Unit School District 60 (Waukegan).



                                                  BACKGROUND 



Title I, Part A of the Act (P.L. 107-110) significantly increased the choices available to the
parents of students attending Title I schools that fail to meet state standards. Beginning with the
2002-2003 school year, the Act provided immediate relief for students in schools that were
previously identified for improvement or corrective action under the 1994 reauthorization of the
ESEA. LEAs must offer all students attending schools identified for improvement, corrective
action, or restructuring the choice to attend a public school (including public charter schools) not



           Our mission is promote the efficiency, effectiveness, and integrity of the Department’s programs and operations
Final Report
ED-OIG/A07F0003                                                                                      Page 2 of 11

identified for improvement, corrective action, or restructuring.1 Schools that fail to make AYP
while identified for improvement, corrective action, or restructuring are required to offer SES to
low-income students. SES providers must be approved by the state and offer services tailored to
help participating students meet state academic standards. To help ensure that LEAs offer
meaningful choices, the Act requires an LEA to spend at least an amount equal to 20 percent of
its Title I allocation to provide transportation to the school of choice and SES to eligible
students, unless a lesser amount is needed to satisfy all demand. The LEA must spend a
minimum of an amount equal to five percent of its Title I allocation on transportation and five
percent of its allocation on SES, if the amount is needed.

The U.S. Department of Education allocated $493,745,204 in Title I funds to ISBE for the
2004-2005 school year. ISBE allocated Title I funds during this period to 805 of its 881 LEAs.
ISBE utilized five state assessments, administered in Spring 2004, to determine each school’s
AYP status for the 2004-2005 school year– Illinois Standards Achievement Test, Prairie State
Achievement Examination, Illinois Alternate Assessment, Illinois Measure of Annual Growth in
English, and the Terra Nova (administered only to second grade students in Title I schools).
Based on the results of these assessments, ISBE provided preliminary and final AYP
determinations to the LEAs in letters dated August 13, 2004, and December 10, 2004,
respectively.

For the 2004-2005 school year, 655 schools in 138 LEAs were identified as needing
improvement, corrective action, or restructuring – 151 schools were in the first year of
improvement, 72 schools were in the second year, 14 schools were in the third year, 394 schools
were in the fourth year, and 24 schools were in the fifth year. For the six LEAs we reviewed as
part of our audit, 6,145 of the 284,527 (2 percent) eligible students at 392 schools exercised their
right to school choice. In addition, five of the six LEAs enrolled 1,369 of the 11,583 (12
percent) eligible students at 31 schools required to offer SES.2



                                            AUDIT RESULTS 



While implementing the Public School Choice and SES provisions of the Act and the
implementing regulations for the 2004-2005 school year, ISBE (1) had a clear definition of
persistently dangerous schools and a system for identifying persistently dangerous schools;
(2) ensured its SES provider application process provided adequate assurance that each SES
provider met the State’s requirements; (3) identified, approved, and timely disseminated a list of
SES providers to LEAs; (4) developed and implemented an electronic monitoring process for

1
  A school is identified for improvement after failing to make AYP for two consecutive years. A school in its first
year of improvement must provide parents with the school choice option. If the school identified for improvement
again fails to make AYP (second year of improvement), it must also offer SES to low-income students. If the school
identified for improvement fails to make AYP in subsequent years, the school must implement corrective action
(third year of improvement) and undergo restructuring (fourth year of improvement).
2
  Chicago offered SES to all students; therefore, the percentage of eligible students that requested SES was not
available. As of January 24, 2005, Chicago had 86,795 students enrolled in SES programs. This number includes
both eligible and ineligible students at 336 schools (including 2,164 students from eight schools not identified for
improvement).
Final Report
ED-OIG/A07F0003                                                                       Page 3 of 11

monitoring the quality and effectiveness of SES providers and withdrawing approval from
providers that failed to contribute to increasing the academic proficiency of students; and (5) had
a system in place for receiving Title I LEA applications to review school choice transportation
and SES budgets.

However, ISBE did not have an adequate process in place to determine whether all LEAs
actually offered, timely and properly, school choice and SES to all students at all schools who
were eligible for these services. Specifically, ISBE did not adequately review LEAs to
determine whether (1) school choice and SES parental notification letters were provided to
parents, provided timely, and included all required information; and (2) LEAs used SES funds to
provide services to eligible students. In addition, ISBE did not provide final AYP results to the
LEAs before the start of the 2004-2005 school year. In part, as a result of ISBE’s inadequate
process, all six LEAs we reviewed did not comply fully with the Public School Choice and SES
provisions of the Act and the implementing regulations.

In response to the draft of this report, ISBE concurred with our findings and recommendations
with the exception of recommendation 1.3. ISBE outlined various corrective actions already
implemented and planned. In response to recommendation 1.3, ISBE provided the comments
from Chicago that did not concur with the recommendation. We summarized the comments
from Chicago after the recommendation and included ISBE’s comments on the draft report in
their entirety as an Attachment.

FINDING NO. 1 – ISBE Did Not Have an Adequate Process in Place to Review LEAs for
                Compliance with the School Choice and SES Provisions

Section 1116 (c)(1)(A) of the Act requires a state to annually review the progress of each LEA
receiving Title I funds to determine if each LEA is carrying out its responsibilities under Section
1116 of the Act. For the 2004-2005 school year, ISBE did not have an adequate process in place
to determine whether each LEA carried out its responsibilities under the Act and the
implementing regulations. Specifically, ISBE did not sufficiently review each LEA to determine
whether (1) LEAs offered school choice and SES to all eligible students and only to eligible
students, (2) school choice and SES parental notification letters were timely and adequate, and
(3) LEAs made all state-approved SES providers serving the geographic area available to
parents.

ISBE Needs to Strengthen its Compliance Review Procedures
For the 2004-2005 school year, ISBE relied primarily on site visits to review LEA compliance
with the Public School Choice and SES provisions of the Act and the implementing regulations.
ISBE reviews LEAs on a 3-year cycle and, for the 2004-2005 school year, limited its site visits
to 60 LEAs with schools identified for improvement, corrective action, or restructuring. During
its site visits, ISBE reviews school choice and SES parental notification letters, evidence that
priority was given to low-income/low-achieving students, and SES provider agreements. Upon
completing a site visit, ISBE issues monitoring reports to the LEAs, requires the LEAs to
respond to the findings in the reports within 30 days, and reviews the LEA responses. ISBE
closes the review process when a corrective action agreement is reached with the LEA.
Final Report
ED-OIG/A07F0003                                                                        Page 4 of 11

For the 2004-2005 school year, ISBE did not have additional review processes in place to
strengthen or broaden the impact of its site visits to ensure all LEAs complied with the Act and
the implementing regulations. For example, ISBE did not require the LEAs to submit school
choice and SES parental notification letters to ISBE prior to the LEA sending the letters to the
parents. In addition, ISBE does not provide the results of its reviews to all LEAs. By reviewing
the LEAs’ parental notification letters and sharing the results of its reviews with all LEAs, ISBE
could help other LEAs avoid the types of non-compliance disclosed by its reviews.

At the time of our fieldwork (Fall 2004), ISBE had reviewed five3 of the six LEAs we reviewed.
ISBE’s reviews identified issues at four4 of the five LEAs. ISBE’s reviews disclosed one issue
that our review disclosed (untimely parental notification letters by Rockford and Madison).
However, our reviews disclosed additional issues that ISBE did not identify. We identified
deficiencies in the school choice parental notification letters that ISBE’s reviews did not identify
(Joliet, Rock Island, and Waukegan).

Had ISBE’s review process been adequate, it could have reduced the risk of the following:

Six LEAs Had School Choice Notification Letter Deficiencies or Untimely Letters
    • 	 Two LEAs (Chicago, Rockford) did not notify all parents of eligible students that their
        children were eligible for school choice and, therefore, did not offer school choice to
        parents who did not receive the notification. Chicago did not notify parents of students
        entering kindergarten, 8th graders moving into 9th grade, and high school students.
        Rockford did not notify parents of students in 6th through 8th grade at two schools.
    • 	 None of the six LEAs (Chicago, Joliet, Madison, Rockford, Rock Island, Waukegan)
        provided information on the academic achievement of the schools to which a student may
        transfer or a comparison to the student’s current school.
    • 	 Two LEAs (Madison and Rockford) did not offer school choice in a timely manner.
    • 	 One LEA (Madison) did not provide school choice information directly to parents 

        through such means as regular mail. 


By not including the required information in their school choice parental notification letters, the
LEAs did not comply with Section 1116 (b)(6) and (b)(1)(E) of the Act and 34 C.F.R. §§
200.37(b) and 200.36(c).5 LEAs must promptly notify the parents of each student enrolled when
a school is identified for improvement, corrective action, or restructuring. The notice, among
other requirements, must include (1) an explanation of how the school compares in terms of
academic achievement to other schools served by the LEA and state educational agency; (2) an
explanation of the parents’ option to transfer their child to another public school; (3)
identification of the schools to which a child may transfer and information on the academic
achievement of those schools; and (4) an offer to provide or pay for transportation for the student
to another public school. In addition, for a school identified for improvement, corrective action,
or restructuring, the LEA must provide school choice no later than the first day of the school year
following identification. Finally, the LEA must provide the information to parents directly
through such means as regular mail.


3
  ISBE officials stated they planned to visit Chicago in January 2005.
4
  ISBE had findings at Joliet, Madison, Rockford, and Waukegan.
5
  All regulatory citations are as of July 1, 2004.
Final Report
ED-OIG/A07F0003                                                                        Page 5 of 11

Because the LEAs provided deficient parental notification letters, parents were not fully
informed about the status of their child’s schools and could not make fully informed decisions
regarding whether to transfer their child from schools identified for improvement, corrective
action, or restructuring. The LEAs provided deficient parental notification letters for various
reasons. Rockford officials decided not to offer school choice until final AYP results were
released (December 2004) because they did not want to make a mistake on reporting a school’s
status. In addition, Rockford did not have any eligible school choice options for middle school
students so Rockford officials thought offering those students SES was sufficient. Officials for
three LEAs (Rockford, Rock Island, and Joliet) stated that not including academic information in
the parental notification letters was an oversight, while Chicago officials believed that providing
the academic information via a website included in the notification was sufficient. A Waukegan
official informed us that Waukegan did not include academic information because it sent
notifications based on preliminary data and did not want to report information that could be
inaccurate. Conversely, Madison officials were unaware of the requirement to include academic
information in the notification. They also made a decision to provide school choice parental
notification letters after the beginning of the school year so that parents could attend open houses
at its schools prior to the choice notification distribution. Madison officials informed us that
principals were instructed to mail the notifications to parents. However, only one of the three
schools in our sample mailed the parental notification letters.

Six LEAs Had SES Notification Letter Deficiencies
    • 	 One LEA (Joliet) did not provide parental notification of SES to the parents of all eligible
        students and therefore did not offer SES to all eligible students. In addition, Joliet
        provided a list of students eligible for SES to its one provider without obtaining prior
        written permission of the parents.
    • 	 Two LEAs (Chicago and Madison) did not provide SES information directly to parents
        through such means as regular mail, which would allow parents to make their SES
        provider selection via mail.
    • 	 Three LEAs (Joliet, Rock Island, Madison) did not identify all state-approved SES
        providers within or near the LEA.
    • 	 All six LEAs (Chicago, Joliet, Madison, Rockford, Rock Island, Waukegan) did not
        provide a description of each provider’s qualifications and demonstrated effectiveness.
        For one LEA (Chicago), which delegated sending the SES letters to the individual
        schools, we could not determine whether one of three schools reviewed sent the letter to
        eligible parents. The other two Chicago schools did not list the services of each available
        provider.

By not offering SES to all eligible students, Joliet did not comply with Section 1116 (e)(1) or
(e)(2)(D) of the Act. An LEA serving schools identified for improvement, corrective action, or
restructuring is required to arrange SES for eligible students in the school and cannot disclose to
the public the identity of any student who is eligible for SES without the written permission of
the parents of the student.

By not including the required information in their SES parental notification letters, the six LEAs
did not comply with Section 1116 (e)(2)(A) of the Act and 34 C.F.R. §§ 200.37 and 200.36(c).
LEAs are required to provide, at a minimum, annual notice to parents of (1) the availability of
services and how parents can obtain the services for their children; (2) the identity of approved
providers within or near the LEA; and (3) a brief description of the services, qualifications, and
Final Report
ED-OIG/A07F0003                                                                         Page 6 of 11

demonstrated effectiveness of each provider. LEAs are required to provide the information to
parents directly through such means as regular mail.

By denying SES to eligible students, Joliet did not allow these students to take advantage of SES,
which could have improved their academic achievement. Joliet did not provide SES to all
eligible kindergarten, first, and second grade students at two of its schools because officials
thought the district offered plenty of tutorial type programs for students in those grades. Joliet
officials were not fully aware of the requirement to obtain parent permission before releasing the
names of students eligible for SES to providers.

Because the LEAs provided deficient SES parental notification letters, parents did not have all
the information needed to make fully informed decisions regarding SES. The LEAs did not
identify all state-approved SES providers within or near the LEA for various reasons. One LEA
(Joliet) determined that a provider was located too far from the LEA to be a viable option for
parents. Another LEA (Rock Island) determined that providers that did not submit satisfactory
LEA-generated provider profile information for its review would not be included. A third LEA
(Madison) was not fully aware of the SES provider identification requirement.

Five LEAs (Chicago, Joliet, Madison, Rockford, and Waukegan) omitted information regarding
the descriptions of each provider’s qualifications and evidence of effectiveness because they
were not fully aware of all the information required in the parental notification letters. A sixth
LEA (Rock Island) contacted each provider and requested information on the qualifications and
evidence of effectiveness but not all providers responded to the request for information. Rock
Island officials informed us they also requested the information from ISBE but ISBE denied the
request, deeming it the district’s responsibility.

Two LEAs (Chicago and Madison) did not provide SES information directly to parents through
regular mail because officials at one LEA (Chicago) believed that sending information through
the mail was an ineffective method for communicating with parents. Officials at the other LEA
(Madison) informed us that some school principals did not follow their instructions to send the
information through the mail. Our follow up with school principals at the three Madison schools
in our sample disclosed that only one of the three school principals mailed parental notification
letters directly to parents.

Had ISBE provided sufficient guidance to the LEAs before the start of the 2004-2005 school
year, the LEAs might have provided adequate SES parental notification letters. When we
brought the above instances of non-compliance to their attention, ISBE officials stated that they
would provide the LEAs with guidance and monitor them to ensure compliance with the
provisions of the Act. ISBE officials also stated that they are looking at the possibility of placing
the SES provider applications on the ISBE web site, which would indicate the providers’
qualifications and evidence of effectiveness.

One LEA Did Not Ensure Proper Use of SES Funds
Chicago did not ensure that funds set aside for SES were used only to provide services to eligible
students. Chicago offered SES to all students, including students at eight schools that were not
identified for improvement.
Final Report
ED-OIG/A07F0003                                                                         Page 7 of 11

Pursuant to Section 1116 (e)(12)(A) of the Act, only low-income students who are attending a
school required to provide SES are eligible for those services. Chicago officials were aware that
ineligible students were offered SES and stated they have “built in audit mechanisms” to prevent
charging services provided to ineligible students against Title I funds set aside for SES. Chicago
provided a description of the process it follows to ensure proper usage of SES funds, but did not
provide documentation confirming that the process had actually been implemented for the 2004-
2005 school year. Using SES funds to serve ineligible students could have an effect on
Chicago’s ability to provide SES to eligible students in the future.

Recommendations
We recommend that the Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement —

1.1 	   Require ISBE to improve its process for reviewing LEAs’ compliance with the Public
        School Choice and SES provisions of the Act and the implementing regulations.
        Specifically, ISBE should implement a process to review LEAs for compliance with the
        requirements to (1) offer school choice and SES to eligible students and only to eligible
        students, (2) provide timely and adequate parental notifications of school choice and SES,
        and (3) allow parents to choose from all state-approved SES providers in the LEAs
        geographic area.

1.2 	   Require ISBE to implement additional procedures to provide adequate and timely
        guidance to LEAs. These additional procedures could include (a) requiring LEAs to
        submit parental notification letters for review before sending them to parents and (b)
        disseminating the results of monitoring site visits to all LEAs, not just the LEA ISBE
        reviewed.

1.3 	   Require ISBE to confirm that Chicago quantified how many ineligible students were
        provided SES and restored the funds attributable to the ineligible students to its Title I
        program.

Auditee Comments
In response to recommendation 1.3, ISBE provided comments from Chicago that did not concur
with the recommendation. Chicago stated that it ensured funds were set aside for SES and that
these funds were used to provide services only to eligible students. Chicago indicated it has
audit mechanisms in place to prevent charging services for ineligible students and outlined the
protocol it used to ensure proper usage of SES funds. ISBE offered no comment as to corrective
action taken or planned to address recommendation 1.3.

OIG Response
The comments provided by Chicago did not cause us to change recommendation 1.3. While
Chicago may have audit mechanisms and a protocol to prevent charging services for ineligible
students, it did not provide us with documentation to support that funds set aside for SES were
used only to provide services to eligible students.
Final Report
ED-OIG/A07F0003                                                                        Page 8 of 11


FINDING NO. 2 – ISBE Did Not Provide Final State Academic Assessment Results to
                LEAs Before the Start of the 2004-2005 School Year

Section 1116 (a)(2) of the Act requires ISBE to provide state academic assessment results to the
LEAs before the start of the school year that follows the school year in which the assessments
were administered. ISBE did not notify LEAs of their schools’ final AYP status until after the
start of the 2004-2005 school year. State assessment tests were administered in March and April
2004. ISBE provided preliminary AYP determinations to LEAs in a letter dated August 13,
2004, and posted the determinations on its website. ISBE provided final AYP determinations to
LEAs in letters dated December 10, 2004.

Without final AYP determinations prior to the start of the school year, LEAs were unable to
identify with certainty schools in improvement, corrective action, or restructuring before the start
of the school year (Section 1116 (b)(1) of the Act). LEAs that used preliminary results risked
reporting schools’ status inaccurately and offering school choice and SES to ineligible students.

According to ISBE officials, numerous errors in participant numbers, demographic numbers, and
status of students (e.g., low income, limited-English proficient) tested occurred. ISBE provided
LEAs several opportunities to correct data errors between July 6, 2004 and December 13, 2004
by opening correction windows. For the 2005-2006 school year, ISBE officials stated that ISBE
has initiated several corrective actions to address late notification to LEAs of schools and
districts in need of improvement. ISBE’s corrective actions include: (1) three time periods
during which districts have an opportunity to clean up data discrepancies; (2) on a daily basis
during the first time period, ISBE provided updated discrepancy checks to districts through the
Illinois Web Activation System to assist districts in correcting data errors; (3) beginning in the
2005-2006 school year, all districts will use the Student Information System (SIS). SIS is a
system in which statewide ID numbers are created for every student and demographic
information is included. ISBE officials believe that by merging assessment data with the SIS,
most data discrepancies will eventually be eliminated. In addition, ISBE officials stated that
ISBE is working to produce a TOOLKIT, which would include sample letters for schools and
districts to send to parents for notification of school choice and SES. Officials did not indicate
when TOOLKIT production would be completed and implemented.

Recommendation
We recommend that the Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement —

2.1 	   Confirm that ISBE (a) implements its corrective actions for the 2005-2006 school year
        and (b) provides final AYP assessment results to the LEAs before the beginning of each
        school year.
Final Report
ED-OIG/A07F0003                                                                                       Page 9 of 11


                     OBJECTIVES, SCOPE, AND METHODOLOGY 



The objectives of our audit were to determine if, for the 2004-2005 school year, (1) ISBE had an
adequate process in place to review LEA and school compliance with the AYP, Public School
Choice, and SES provisions of the Act and the implementing regulations; (2) LEAs provided to
students attending schools identified for improvement (failed AYP two consecutive years),
corrective action, or restructuring the option of attending another public school; and (3) LEAs
provided SES to students attending schools that failed to make AYP while identified for
improvement, corrective action, or restructuring. Our review of ISBE’s AYP process focused
solely on the timeliness of providing AYP determinations to LEAs.

To achieve our objectives, we reviewed selected provisions of the Act and the implementing
regulations. We also interviewed officials from ISBE and six LEAs. In addition, we reviewed
documents provided by ISBE, including (1) the ISBE organization chart; (2) documents related
to compliance with the Act’s provisions related to AYP, the identification of persistently
dangerous schools, school choice, and SES; (3) Illinois State Board of Education Accountability
Workbook, May 2004 Revision; and the (4) State of Illinois Single Audit Report For the Year
Ended June 30, 2003.

To assess compliance with the Public School Choice and SES provisions of the Act and the
implementing regulations, we judgmentally selected 6 LEAs from a universe of 138 Illinois
LEAs that had schools identified for improvement, corrective action, or restructuring for the
2004-2005 school year. We selected the six LEAs — 1 large (Chicago), 3 medium (Rockford,
Joliet, and Waukegan), and 2 small (Rock Island and Madison) — based on total student
enrollment. We defined a large LEA as one with a student enrollment of 10,000 or more, a
medium LEA as one with a student enrollment of 1,000 through 9,999, and a small LEA as one
with a student enrollment of 999 or less.

For each of the six selected LEAs, we reviewed documentation related to the LEAs’ compliance
with the Public School Choice and SES provisions of the Act and the implementing regulations.
The documentation included (1) school choice and SES parental notification letters sent by the
six LEAs;6 (2) documentation related to the number of students eligible for and participating in
school choice and SES; and (3) documentation related to school choice transportation
expenditures. Our review of school choice and SES parental notification letters focused on
selected provisions of the Act and the implementing regulations.

For the school choice parental notification letters, we determined (1) whether parents were
notified in a timely manner; and (2) whether the notice, at a minimum, (a) informed parents that
their children were eligible to attend another public school due to the identification of the current
school as in need of improvement; (b) identified each public school, which could include charter
schools, that the parent could select; (c) explained how the school compared in terms of
6
 Because Chicago relied on its schools to develop and provide SES notification letters to parents, we selected a
sample of schools to test the notification letters for compliance with the law and regulations. Madison relied on its
schools to provide the school choice/SES letters to parents so we selected a sample of schools to test for compliance
with the law and regulations.
Final Report
ED-OIG/A07F0003                                                                     Page 10 of 11

academic achievement to other schools served by the LEA and ISBE; (d) included information
on the academic achievement of the schools that the parent could select; and (e) clearly stated
that the LEA would provide, or pay for, transportation for the student.

For the SES parental notification letters, we determined (1) whether parents were notified of SES
and given comprehensive, easy-to-understand information about SES; and (2) whether the
notice, at a minimum, (a) identified each approved service provider within the LEA, in its
general geographic location, or accessible through technology such as distance learning;
(b) described the services, qualifications and evidence of effectiveness of each provider;
(c) described the procedures and timelines that parents must follow in selecting a provider to
serve their children; and (d) was easily understandable, in a uniform format, and, to the extent
practicable, in a language the parents could understand. If the LEA had insufficient funds to
serve all students eligible to receive services, we also determined whether the SES parental
notification letter included information on how the LEA would set priorities to determine which
eligible students would receive services.

As part of our audit, we also gained an understanding of ISBE’s system of internal control over
LEA compliance with the Public School Choice and SES provisions of the Act and the
implementing regulations. Though we did not assess the adequacy of ISBE’s system of internal
control, our compliance testing at six LEAs disclosed instances of non-compliance that might
have been caused, in part, by weaknesses in ISBE’s system of internal control. These
weaknesses are related to ISBE’s monitoring of LEAs to determine whether (1) school choice
and SES parental notification letters were provided to parents, provided timely, and included all
required information; and (2) LEAs used SES funds to provide services to eligible students.
These weaknesses and instances of noncompliance are discussed in the AUDIT RESULTS
section of this report.

We performed our audit work at ISBE’s administrative offices in Springfield, Illinois, the
administrative offices of the six LEAs reviewed, and our Kansas City office from October 2004
through May 2005. We discussed the results of our audit with ISBE officials on May 20, 2005.
We performed our audit in accordance with generally accepted government auditing standards
appropriate to the scope described above.
Final Report
ED-OIGIA07F0003                                                                     Page 11 of 11




                            ADMINISTRATIVE MATTERS 



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials, who will consider them before taking final Departmental action on this audit:

                      Dr. Henry L. Johnson, Assistant Secretary
                      Office of Elementary and Secondary Education
                      U.S. Department of Education
                      Federal Building No.6, Room 3W315
                      400 Maryland Avenue, S.W.
                      Washington, D.C. 20202

                      Nina S. Rees, Assistant Deputy Secretary
                      Office of Innovation and Improvement
                      U.S. Department of Education
                      Federal Building No.6, Room 4W317
                      400 Maryland Avenue, S.W.
                      Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.c. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                             Sincerely,




                                             Regional Inspector General for Audit
                                                                                                                     Attachment 

                                                                                                                    Page 1 of 12 





            Illinois State Board of Education
            100 North Firs! $''''''1 • S prOnglield. lIIi","S 62777-0001                                      Jeue H. Rulz
            www.isbtl ,""t                                                                                         Cnajrman
            Rod BIIgo]evlcll                                                                            Dr. Randy J. Dunn
            Governor                                                             SiaM SllpfIrintendem 01 EdOJC8rlan (Interim)




                                                           July 19, 2005



Mr. Richard 1. Dowd
Regionallnspector General for Audit
U. S. Department of Education
Office of Inspector General
III N. Canal Street, Suite 940
Chicago, Illinois 60606-7297

Dear Mr. Dowd:

r received the Office of Inspector General's Draft Audit Report, titled Illinois State Board of
Education 's Compliance with the Public School Choice and Supplemental Education Service
Provisions ofthe No Child Left Behind Act on June 27, 2005.

Enclosed are the Illinois State Board ofEducalion responses to the findings and
nx:ommendations made by your audit team.

If yo u need more information or clarifying information, please contact Donna Lua llen. at 217-
782·2948.


                                                          re1
                                                      13R,"d::d ,fcv-­
                                                         State Superintendem of Education (Interim)

Enclosure

cc:    Peggy MOnlgomery, Office of lnspector General
       AruleUe Kncib, Office of Inspector General




                  Priflled by AFL-CIO (A FSCM E Local .28 11 and IFSOE Local '3236) Employ" s
                                                                                                      Attachment 

                                                                                                     Page 2 of 12 





FINDING NO. I - ISBE Did Not Have a n Adequate Process in Place to Review LEAs
                fo r Compliance wit h t he P u blic Scbool C hoice a nd SES P rovisions

Reco mmendations:
We recommend that thc Assistant Secretary for Elementary and Secondary Education, in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement --

1.1          Require ISBE to improve its process for reviewing LEA compliance with the
             Public School Choice and SES provisions of the Act and the implementing
             regulations. Specifically, ISBE should implement a process to review LEAs for
             compliance with the requirements to (I) offer public school choice and SES to
             eligible students and only to eligible students, (2) provide timely and adequate
             parent notifications of public school choice and SES and (3) a1low parents to
             choose from all state-approved SES providers in the LEA's gcographic area.

1.2          Require ISBE to implement additional procedures to provide adequate and timely
             guidance to LEAs. These additional procedures could include (a) requiring LEAs
             to submit parental notification leners for review before sending them to parents
             and (b) disseminating the results of monitoring site visits to all LEAs, not just the
             LEAs ISBE reviewed.

1.3          Require ISBE to confirm that Chicago #299 quantified how many ineligible
             students were provided SES and restored the funds attributable to the ineligible
             students to its Title I program

ISBE RES PONSE
Illinois has taken a number of steps forward to ensure that subsequent SEA administrative
actions, including notification letters, are in place for 2005-06. Illinois began helping districts
with SES providers in fa11 2002. with the initial list of Board-approved providers available as of
Deccmber 2002, and we have continued to evolve and improve the system.

ISBE had a lengthy discussion of the entire system of SES at its June 2005 meeting. Rules were
approved to move forward as proposed rules as well as emergency rules; a draft toolkit
[Supplemental Educational Services TOOLKIT for fllinois Schools, Districts. Providers and
Parents] was distributed for comments; a revised draft applicatio n was distributed. also for
comments; and an evaluation and monitoring process was reviewed as well

      A. ISBE has already mailed a letter to all LEAs with schools in school improvement,
         identified in December 2004, and to 2005 schools in improvement which must offer
         choice andlor SES, as of July It , 2005.

      B. Each LEA must prepare a letter to be delivered to parents of students in Title I schools in
         school improvement status on or before the first day of school containing the following
         information.
         I. An explanation of what the school improvement identification means.
                                                                                           Attachment 

                                                                                          Page 3 of 12 





   2. How the school's academic achievement compares to other schools served by the
      district and Slate.
   3. The reasons that the school is identified for school improvement.
   4. An explanation of what the school identified for school improvement is doing to
      address the problems of low achievement.
   5. An explanation of what the district or Slate is doing to help the school address the
      achievement problem.
   6. An explanation of how the parents can become involved in addressing the academic
      issues that caused the school to be identified for school improvement.
   7. An explanation of the parents' option to transfer their child to another public school
      with transportation provided by the district when required. or to obtain SES for
      eligible children.

C. A copy of this local letter in draft fonn must be submitted to ISBE for review prior to
   August 19, 2005. ISBE will read, review, correct. and approve letters from the districts
   and require additional comments where necessary and appropriate. Each letter being sent
   to parents will be approved if the seven parts listed in B above are included.

D. ISBE is preparing and will be disseminating the aforementioned toolkit in July 2005. It
   will be posted on the agency web site.

E. ISBE has also modified and will be posting the Application for Supplemental Educational
   &rvices Providers, pursuant to the proposed state rules for SES. That too will be
   available for use in the next round of applications for providers.

F. lSBE will have a plan in place and commence monitoring both the provision of public
   school choice and the provision of SES at the beginning of the 2005-06 school year.
   Active follow-up will occur on a quarterly basis thereafter.

O. ISBE has enclosed the sample Choice and SES Letters sent to districts with schools in
   improvement status.

H. ISBE has enclosed the responses from the Chicago Public Schools (CPS) sent to the 010.
                                                                                                                               Attachment 

                                                                                                                              Page 4 of 12 





                           Letter to Diltrielt with Schools In School Improvement Status

                                                                        July II, 2005

District Name
Superintendent
-~.
City, State, Zip Code

Dear Superintendent (name):

Section 1116(b)(I)(E) of the No Child Left Behi"ld law requires that each Title I school thai does not make Adequate
Yea!ly Progress (AYP) lor a thi'(! consecutive tine must ptep8(e a letter b be deil'efed to parents on or before the first
day 01 school contaning the following information.
     • All explanation 01 ¥.tIat the school MnproYement Identification means.
     • How the school compares in lerms of academic achievement to other schools served by the LEA and State.
     • The reasons lor the school being tdefl~fied for school improvement
     • All explanation of what the school identffied for school improvement is doing to address the problems of low
          achievement
     • AA explanation of what the LEA or SEA is dOOg b help the school address the achievement problem.
     • All OJ:pIanalion 01 how the parents can become r.vo/ved in addressing the academic issues that caused the
          school kl be identified lor school Improvement.
     • All explanation 01 the parents' options to transief tlleir dJjd to aooltief school with transportation provided by
          the LEA when requi"ed or to obtain supplemental education services for eligible dJild"en.

In sman school districts or if the district lias only one school per grade span, the school is required to seild the notice
and state that no viable public school choice option is available. Where no viable public school choice option is
available. the school may move directly to SES lilring the first year of Sc:hoot Improvemenllor eligible students.

A copy of the letter the school is sending 10 parents must also be sent to the lI~nois State 8oa'd of EdliCation (ISSE).
The letter must be reviewed and approved by ISSE. If changes are required 10 conW with the statute the district and
school wi~ be notified. A copy of the letter b parents must be returned \0 ISBE, Attn: Donna Luallen, .Accountability
DMsion, by August 19, 2005

Approval wilt be given if the requW"ed information above is induded r. the letter. Slw"np!e ie"ers are enclosed. For
additional r.formation please contact Donna Luden at 21mS2-2948 «&-mail dluaJlen@isbe.net.

                                                   SllCe(ely,




                                                   Donna LuaOen, Division Administrator
                                                   .Accountabiily Oivision

Enclosures:
         Sample Letter. Public School CIloice
          Sample Letter: Supplementary Educational Selvices
                                                                                                                                  Attachment 

                                                                                                                                 Page 5 of 12 





                                           Sample Letter: Public ScIKloI Choice
                                    Sclloolsln Years 1-4of School lmprovem.nt Status

                                                                           D..

  ''''''
 ""'~,
 City, State, Zip Code

 "'.
 As a result 01 tile federal No Child Let! Behind Act, your child may have tile option to transfer to anoIIIer school within
 tlledistrict. This has become an option as your childs school is in year (I, 2, 3, Of4) oI ' sd\ooi Improvemen~'

 Your child's school being in school improvement means that tile school has not made adequate yearly progress on tile
 State measures 01 academic achievement for alleast two Yea'S. Our district's report card (endosed with this letter)
 shows how your child's school compares to other schools in oor district and state. Your child's school lias been
 idenlitied because (list reasons for lde.101ication). The sdlooI is \IIOfking to improve tile, school's acadeITj(; program by
 (lsi what is being done).

 The district and tile state Soard 01 Education are working with your child's school to help inlprove tile academic
 standards of the school. This is being accornpI!shed by providing technical assistanoe to the teachers and
 administrators within your chid's school.

  However, this may not be enough and we wanllo request your help as the school add-esses its ecademic problems.
. The school would like to invfle parents to serve on the oommitlee that will need to d$veiop a school improvement plan.
  We would also ~ke 10 inYOlve p;w-ents In addressing tile academic issues that caused the school 10 be Ide.1fified for
  school improvement.

 As a pcYent you have the option to msfer your dlild to another public school withIn tile distrid with Iralsportation
 provided by the district. A list of these options is enclosed. (If district has a choice agreement with another disbicl, Of W
 no viable option is available, please stale here.)
 Please cal (name and number) If you have any questions about these services, You may also join us to ta!k about
 your options on (date and place) 10 help you decide what 15 best for your dlikl.

                                                               Thank you,




                                                               Oistrict Official

 Enclosures:         SchocJj   Report card, Ust 01 schools available for student transfefs
                                                                                                                                Attachment 

                                                                                                                               Page 6 of 12 





                               Sample Letter: Supplementary Educational Services
                          Sent only to parents olltudlflts receivi ng free Of reduced lunch
                                Schools In Years 2-4 of School Improvement Status

                                                                         Date

N_
,,",,~
City, State, Zip Code

Dear ....... ,

Help your child succeed in sdlooI-sign up !of free Moringl As a resuH oIlhe fedetal No Child Lan Behind /od. your
child can receive extra help in ltIe 8(eas of maih, reacmg, and language arts. You can receive ihis free tutoring
because your child's schoo! is in ils second yeiY or later 01 schoo! i~ment and you family meels the Income li"nits
underltle law,

Your chid's school has been identified !of improvement because it has not made adequate yearty progress on state
measo.xes of academic achievement for at least three yean. OUr district's report card (enclosed with this letter) shows
how your child's school COOlpares 10 other schools in our district and stale, YCl'.Ir child's schoot has been ldentifi9d
because (ist reasons for identification), We v.;u be ser.ding you more information in a lew weeks about how you can
help us improve the school in these ...eas.

For now, you can choose a free tutoring program that is best for your chid. Ant 01 approved tutoring progrllllS in
your area is enclosed. These programs have been approved by h Illinois Stale Board of Education 8Ild wiI prtMde
your d\tI with tutoring that is cooranated with what is being taught in school.

When deckling which tutoring program is best for your chld, you may want to ask these questions:
   • 'MIen ood where will the tutorng take pace (at school, home, COOlmunity center)?
   • How often and for how many hours In total Mol your child be tutored?
   • VYhat programs, by grade levels and subject areas, ...e available for your child?
   • VVhat type of instruction wUlltIe tutor use (smaa group, one-oo-ooe, or the COOlputer)?
   • VVhat are ltIe tutor's qualifications?
   • Can the tutor help il your cIlild has disabilities or is leamtng Engtish?
   • Is transportation available 10 and ffom where the tutoring wi n take place?

If more students request tutoring than can be SCfYed through available funding, priority wiU be given     to low ptffornWIg
students as determined by the district

Please call (name ood number) if you have any questions about these services. You also may join us to talk to ltIe
tutors on (dates and times 01 parent fairs) 10 help you decide which program is best for your cIlid. If you would tike to
setect a tutor now, you can fiU Cl'.It the enclosed provider selection form !lid mal Hback 10 (name and address) illtle
stamped envelope we pro'oide. Applications are due by (date). You wil receive a letter from (school district) by (date)
tenf1g you when the free tutoring wil start

Flr\8l1y, if you do noI wish 10 sign up lor these services, you may also choose to transfer your cIlKd 10 another scflooI in
the district. The enclosed public school choice letter gives more informatial about pIIbtic sdloot choice in our district

                                                             Th ....kyou,



                                                             District Official

E_
Approved Provider listlProvider tnformation, Provider Selection Form, and SiYnple Letter. PlJbtic Sc:hoot Choice,
          District Report Carol
                                                                                                  Attachment 

                                                                                                 Page 7 of 12 





FlNDING NO.2 - ISBE Did Not Provide Final State Academic Assessment Results
      to LEAs Before the Start of the 2004-2005 School Year.

Recommendation
We recommend that the Assistant Secretary for Elementary and Scx:ondary Education in
collaboration with the Assistant Deputy Secretary for Innovation and Improvement-

2.1     Confirm that ISBE (a) implements its corrective actions for 2005-06 school year
        and (b) provides final A YP assessment resul ts to the LEAs before the beginning
        of each school year.

ISBE RESPONSE

Staff bas closely examined the obstacles which have impeded ISBE's ability to inform
districts of adequate yearly progress (A VP) status prior to the beginning of the school
year. Though the release of status is depending upon school and district review and
verification of participation data, attendance data, graduation data and assessment data,
ISBE's projcx:tion for the release of2005-06 status is much earlier than in previous years.

Many scbools and districts have already verified their participation, attendance and
graduation data as of mid-June. They have already verifi ed their assessment data. The
window of opportunity to do that for elementary and middle schools and elementary
districts began on June 20d>. For high schools, high school districts and unit districts, that
window opens mid-July 2005 . Now that the process of approval by USDE of the
requested changes in the lllinois Accountability Workbook is final, Illinois will post final
AYP status information on the £WAS web site for individual school access. We were
ready to do so as of June 20d> but had to await final USDE action on the workbook
proposals.

Final A yP determinations were posted on the 2004 report card in November of 2004.
The School Report Cards contains the A YP status of each school. The District Report
Card contains a listing of the schools within the district that are in school improvement
status.

For school year 2004-05, ISBE has initiated several actions that will allow for
schooVdistricts to make corrections to tbeir data and also to have earlier access to the
A VP Status Report via an online system.

ISBE's corrective actions include: (I) three time periods during which districts have an
opportunity to correct data discrepancies; (2) on a daily basis during the first lime period,
ISBE provided updated discrepancy checks to districts through the Illinois Web
Activation System to assist districts in correcting data errors; (3) for those schools wbo
bad submitted their School Report Card data and also approved their data on
Schoolhouse, A yP Status Reports were generated on a daily basis beginning with July
6th • As of July 15, 1,384 A VP Status Reports have been generated for elementary schools
and those scbools that have grade 2 as the highest grade. (4) Beginning with the 2005·
2006 school year, all districts will be required to use tbe Student Information System
(SIS). The SIS assigns a unique student identifier to each student in the state.
                                                                                            Attachment 

                                                                                           Page 8 of 12 





Demographic information is provided on each student. ISBE officials believe that once
the SIS is fully implemented that it will be possible to provide the information for the
Pre-ill labels for the testing documents. This will eliminate most data discrepancies.
                                                                                                                  Attachment 

                                                                                                                 Page 9 of 12 


<   •




                         CHICAGO PUBU C SCHOOLS, 125 S. CLARK STREET, II'" floor ' CHICAGO, IU .lHOiS 60603

                                                      tICL8 ACcoo.o<T"'""",
                                          ~ "'R _ cII . E~..w_tIiIt)'
                                                           Tn.'SS3-2013O
                                                        Fll<: 773155:J.-2431



        TO:              Margaret Monlgollla')', United State! Department of Education

        Ct!              G~il LiebcmulII, Federsl Relations, ISBE
                         Ginger Reynolds, Teaching and Lemting ServK:c$, ISSE
                         Pedro MartinC2., Office of Management and Bud~, CPS
                         Walter Th iel, Offie<: of Managetnenl and Budget, CPS
                         Kayle<!11 Jriuny, FlUldcd Proerams. CPS

        FROM:            Xavier Solana   ~
        DATE:            May 25, 2005

        RY.:             Rf;SPOI"St: TO NeLS AUDIT EXCEPTIONS



        Enclosed is Chicago Public Schools' re$p(lll$e 10 lhe [kpartmcnt of Education Audit Exce:pliQn Report.
        Our reliJlOIISC indicalCllhc following:

                     •    The PaRDts of al l appropriaIC children wen: notified lb. , their sehools were
                          identified for improvement.

                     •    To prevent the parenllll choice letter from beeoming undecipherable, ;1
                          contained the required informatHllI god information on how to Ieee»
                          comparirom online or through OIl' hotline.

                           We re<:cived BpprovallO begin the SES process bef~!em r«ults were fmal
                          in order to begin !he programs near Ib<:: beginning of the school yel)'.

                          In instances in wbicb students ~ame inelillible .fier the $Iart of the pl1)graJD,
                          we will adjust fut>dins: for the d er scllool program 10 that Title I funds pay for
                          allowable services.

                     •   We ~upplie-d pl1)vider informalian directly \0 parents as well as held open
                         houses to allow parents l"IlCl:\ with \he providers..
                                                                                                                 Attachment 

                                                                                                               Page 10 of 12 


· .\ .




          Response to NelS Audit Exceptions
          Exception 1 - Notification of all parents of students at all schools identified for improvement

         ResD90se:
         In April 2004, Chicago Public Schools sent letters to parents of students al all schools identified
         for school improvement informing parents as required by law. Parents of children Who were in
         pre-kindergarten, kindergarten or eighth grade were not sent the letters. This explains the
         discrepancy between the number of eligible students and the number of letters sent. This was
         explained to the audit team during the audit visit.

         Exception 2 - Funds set aside for SES were used only for services to eligible students

         Response:
         !lIs our position that Chicago Public Sd100ls ensured thai funds were set aside for
         supplemental educational services (SES) and that these funds were used 10 provide services
         only to students who were identified as eligible tot these servICes.

         CPS was aware and Informed schools that only low income students (free and reduced price
         lunch eligible) students who are eligible for supplemental educational services. However, since
         free/reduced lunch status could change at different points In lime, and in an effort 10 not
         discourage anyone from applying and receiving supplemental educational services, CPS built In
         audit mechanisms to prevent charging services from enrolled students who do not meet the
         FRL criteria to the required 20% set aside.

         We used the following protocol 10 ensure the proper usage of the funds:

                 Confirm the enrollment for each Provider including those schools that have CPS as a
                 Provider
                  Identify the "income status' of children receiving SES services that are included In the
                 verified student enrollment rosters at each school
                 Use TIlle I set asJde funds 10 pay for only those children qualified for SES as noted
                .""".
                 Keep records In a format thai Will allow us to Identify that we have allocated funding for
                 SES progrems in the manner identified above

         Exception 3 - SES to Ineligible students at schools not In their second year of school
         Improvement, In corrective action, or in restructuring

         Response:
         CPS projected which schools would be eligible for supplemental educational services based on
         the data available as of April 2004. ISSE and USDE approved the CPS plan to Implement SES
         with these projections. However, updates by the state as a result of various data dean up
         processes and Spring 04 test scores, resulted In some schools being removed from the list
         CPS made the decision to not revoke supplemental services at those schools except in schools
         where the principal was no longer required to provide SES and chose to not provide SES.
                                                                                                           Attachment 

                                                                                                         Page 11 of 12 





CPS built in audit mechanisms to not charge seMceS at Ineligible schools to the required 20%
set aside.

We used the following protOCOl to ensure the proper usagE! of the funds:

         Identify the Providers al each school
         Confirm the enrollmeot for eadl Provider i1duding those schools that have CPS as a

         """"'"
         Determine the schools that were nOl eligible to provide SES based on final designations
         from ISBE
         Use funds from the Title I set aside fot only those schools that qualify for SES under
         NClB
         Keep records In a format that 'Hi" allow us to klentify that we have allocated fLWldlng for
         SES programs in the manllEtr klentifled aboYe

II should be noted thallwo of the schools cited by GAO have subsequently been added to the
school Improvement lIsl as ISBE reviewed the school's TrtIe I eligibility history. This issue points
to the difficulty facing dIStricts with the fluidity of the deslgnaUon process ClJrrently in place. We
stand 10 be penalized for not offering services when a schoot becomes eligible In mid-stream
and we stand to be penalized when a school Is no longer eligible due to data corrections.

Exception 4      Inclusion of the minimum required information in notification letters and prcwialon
of the InfOl'lTl8tionto parents directly
Respoose:
Chicago Public Schools sent notification letters dl"ectly to parents of all students at schools that
were klantified to offer dloice. In thai letter we also explained that parents that opted to remain
at the sdlool would be eligible for supplemental educational s&Mces. (See copy of the parent
notification letter attached.) The letter did not contain spedflc Infotmation on the SES provider
options or enrollment process, because our past experience sending this Iype of detailed SES
Information through the mail proved that It was an Ineffective method of oorrvnunlcating 'Hith
parents.

We opted Instead to hand out information at school by teachefslschool staff during "report card
pick up" (dislrictwide an overwhelming majority of parents attend school report card p/d(-up
dales). School staff were able to field questions on site. Follow up queslions coukl be directed
to the school as well as through our telephone hotIine. In addiUon, indMdual schools
coordinated open houses for parents, and CPS held regional open houses at various
community locations, to allow parents and providers to meet directly. Our position is that lhe
ovefWhelmlng response evidenced by the unprecedented (In CPS) and unmatChed (nationally)
enrollment n our SES program (60,000 students) more than Justifies CPS' decision path.

At report card pick up, CPS provided eaCh parent of children In kindergarten tlYough grade
seven with a booklet that described the Moring programs (Including tocaUon), the qualifications
of the program's tutors, the number of students in each class, the amount of lime to be spent in
tutoring sessions, and the materials 10 be used during the sessions. The schools were
instructed to assisl parents in making their selections [If requeslBd) and to collect the completed
registration forms. Given that the district Is n the early stages of ImplemenUng SES and the
Slate qualifies the providers, CPS is not at a point yet to determlne the quality and effectiveness
of services. As a result, this information was not iodlJded In the 2004-05 SES booklet.
                                                                                                                 Attachment 

                                                                                                               Page 12 of 12 


'.




     Exception 5 - Comparison of school's academic achievement to other schools or inclusion of
     mformation on receiving schools' academic achievement in parsntal choice notification letter


     C~::;::l."t:~~;:,;':~~~~t:';;rlOlif1cation letters directly to parents of students in grades K-7 al
     $(           were '     jI      offer choice. The letters contained the following jnformation:

          •   The school's school improvement status
          •   How the school's status was determined
          •   The repercussions of not meeting standards
          •   Their child's eligibility to transfer to a school that has not been identified for improvement
              by the state.
          •   How to apply for a transfer
          •   The schools to which the child could transfer
          •   Transportation options for children who transfer
          •   Deadline for applying for transfers
          •   How to access comparlsons of t he 600 schools in the district

     Induding actual data comparisons in a single letter would result In the letter being
     undecipherable. Therefore, CPS opted to have the infconation for parents to make informed
     decisions accessible online or through our holline.
